<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: DISCUSSION OF THE EFFECTS OF INCLUDING PUERTO RICO IN THE 2000 U.S. POPULATION TOTALS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 OVERSIGHT OF THE 2000 CENSUS: DISCUSSION OF THE EFFECTS OF INCLUDING 
             PUERTO RICO IN THE 2000 U.S. POPULATION TOTALS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 1999

                               __________

                           Serial No. 106-66

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
61-630                     WASHINGTON : 2000

                                 ______

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
PAUL RYAN, Wisconsin                 DANNY K. DAVIS, Illinois
MARK E. SOUDER, Indiana              HAROLD E. FORD, Jr., Tennessee
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Thomas B. Hofeller, Staff Director
                  Jennifer M. Safavian, Chief Counsel
                           Amy Althoff, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 22, 1999...............................     1
Statement of:
    Angueira, Teresa, Assistant Division Chief, Decennial 
      Management Division........................................    63
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................    26
    Prewitt, Kenneth, Director, Bureau of the Census.............    40
    Romero-Barcelo, Hon. Carlos A., the Resident Commissioner in 
      Congress from the Commonwealth of Puerto Rico..............    19
    Serrano, Hon. Jose E., a Representative in Congress from the 
      State of New York..........................................    17
Letters, statements, et cetera, submitted for the record by:
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    16
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa, prepared statement of......................    28
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............     9
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     4
    Prewitt, Kenneth, Director, Bureau of the Census, prepared 
      statement of...............................................    46
    Romero-Barcelo, Hon. Carlos A., the Resident Commissioner in 
      Congress from the Commonwealth of Puerto Rico, prepared 
      statement of...............................................    22

 
 OVERSIGHT OF THE 2000 CENSUS: DISCUSSION OF THE EFFECTS OF INCLUDING 
             PUERTO RICO IN THE 2000 U.S. POPULATION TOTALS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 22, 1999

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2203, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Davis of Illinois, 
Maloney, and Ford.
    Staff present: Thomas W. Brierton, deputy staff director; 
Jennifer M. Safavian, chief counsel; Timothy J. Maney, chief 
investigator; David Flaherty, senior data analyst; Chip Walker, 
communications director; Jo Powers, assistant press secretary; 
Amy Althoff, clerk; Michelle Ash, minority counsel; David 
McMillen, minority professional staff member; and Ellen Rayner, 
minority chief clerk.
    Mr. Miller. Good morning. With a quorum present, we will 
proceed with opening statements by myself and Mrs. Maloney, and 
then we'll proceed to the first panel with three distinguished 
Members of Congress.
    Today, the subcommittee will be exploring a very 
interesting and important topic: the collection, tabulation, 
and reporting of the 2000 census data from Puerto Rico.
    The United States has long enjoyed a prosperous 
relationship with the island of Puerto Rico, first as a 
hemispheric neighbor and, in the 20th century, as a U.S. 
Commonwealth.
    All Puerto Ricans are U.S. citizens, as provided by the 
Jones Act, which was enacted into law in 1917. These citizens 
have made a tremendous contribution to the United States. 
Countless Puerto Ricans have served in our Nation's armed 
forces, fighting in all of America's conflicts in the 20th 
century in order to protect the freedoms we all hold dear. 
Puerto Rico's economy, its capable and industrious work force, 
and strategic location make it a vital center of American 
commerce in the Caribbean and Latin America. And many Puerto 
Ricans have chosen to immigrate to the mainland, helping to 
expand our economy and enrich our cultural heritage.
    American citizens, whether in Puerto Rico or in the 50 
States and the District of Columbia, have much in common. They 
share the same values of hard work and honesty and appreciate 
the importance of family, faith, and freedom. As a result of 
the 2000 census, that connection will grow even stronger. They 
will be enumerated using the same forms in the decennial 
census.
    In the previous censuses, Puerto Rico, as well as other 
U.S. Commonwealths and related territories, were counted using 
a different census form than the 50 States and the District of 
Columbia. Different enumeration techniques were also used. In 
2000, it is our understanding that the forms and techniques to 
be used in Puerto Rico will be far more similar, and in many 
cases identical to, those techniques used in the 50 States and 
the District of Columbia. I am sure Dr. Prewitt will be able to 
elaborate on this subject in detail during his testimony.
    Thus, in the past, the Census Bureau used different forms 
and different enumeration techniques in Puerto Rico than they 
did in the 50 States while still seeking similar data. When it 
reported on the data it collected in Puerto Rico in the 1990 
census, the Bureau placed it in a category separate from the 
data collected from the 50 States and the District of Columbia. 
Consequently, any national data products and statistics from 
the 1990 census, such as the percentage of homes with two or 
more cars or the percentage of children living below the 
poverty line, did not include data from Puerto Rico in the 
overall population totals on which they were based. Under 
current policy, the total population of the United States does 
not include Puerto Rico, or any other U.S. territory for that 
matter. The population figures used by the Census Bureau for 
the total U.S. population include only the 50 States and the 
District of Columbia.
    As I mentioned earlier, the Bureau has changed the way it 
will enumerate Puerto Rico in the 2000 census. The same short 
and a similar long form as used in the 50 States and the 
District of Columbia will now be used in Puerto Rico. As a 
result, the data gathered in Puerto Rico will for the first 
time be compatible with and potentially could be included in 
the overall U.S. totals for official Census Bureau data 
products, as I am certain Dr. Prewitt will explain for us.
    This new compatibility of data leads to the important 
policy question we will examine today. Should the Census Bureau 
include the data from Puerto Rico in the overall U.S. totals or 
should it continue to keep Puerto Rico separate from the total 
including the 50 States and the District of Columbia?
    While this may seem to be just a simple change in 
calculating the total population of the United States, the 
policy considerations of this decision are not insignificant. 
There are many questions that should be examined before a 
determination is made on how to proceed with reporting the 
data. To highlight just a few: One, how will the inclusion of 
Puerto Rico affect the numerous data products produced by the 
Census Bureau and other agencies?
    What effects will the inclusion of data on Puerto Rico have 
on Federal policy decisions that primarily impact the 50 States 
and the District of Columbia?
    Would the inclusion of Puerto Rico negatively affect data 
comparisons from the 2000 census to earlier censuses, 
essentially rendering them apples and oranges?
    If we decide to include Puerto Rico, should we then include 
the population totals of other American Commonwealths, related 
territories and possessions as well?
    Is this potential change significant enough to be better 
decided by a separate vote on authorizing legislation on the 
floor of the House and Senate, rather than nonbinding report 
language in an authorization bill?
    Is there sufficient time and technical resources for the 
Bureau to make these changes in reporting data on Puerto Rico 
for the 2000 census?
    Our colleague from New York, the Honorable Jose Serrano, 
believes strongly that Puerto Rico should be included in the 
U.S. totals. He has proposed, through the use of report 
language in the Commerce Justice State appropriations bill, to 
instruct the Census Bureau to begin including Puerto Rico in 
the final data products for the United States, including 
population totals. I'm pleased he's here to explain his 
proposal.
    We are also fortunate to have with us the Honorable Carlos 
Romero-Barcelo, Resident Commissioner of Puerto Rico and the 
official voice of the people of Puerto Rico in the U.S. 
Congress. Prior to being elected Resident Commissioner in 1992, 
Mr. Romero-Barcelo was elected Governor of Puerto Rico in 1976. 
I look forward to hearing his unique insights and benefiting 
from his experience on this issue.
    We are also joined by the Delegate from American Samoa who 
will provide a perspective on the people of American Samoa, 
whose status in the official Census Bureau population reports 
is currently similar to that of Puerto Rico.
    And, finally, Census Bureau Director Kenneth Prewitt is 
here to give us the reaction of the Census Bureau to Mr. 
Serrano's proposal. He will be commenting on the Bureau's 
ability to collect and disseminate the data from Puerto Rico 
and to advise us on any technical considerations regarding the 
proposal.
    On behalf of the ranking member, Mrs. Maloney, and the 
other members of the subcommittee, I would like to thank all of 
our witnesses for coming here today; and we look forward to an 
enlightening and informative hearing.
    [The prepared statement of Hon. Dan Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T1630.001
    
    [GRAPHIC] [TIFF OMITTED] T1630.002
    
    [GRAPHIC] [TIFF OMITTED] T1630.003
    
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. Thank you very much, Mr. Chairman, for 
calling this hearing.
    Unlike a number of the hearings we have had over the years 
now that the Census Subcommittee has been in existence, I can 
say sincerely that I'm very pleased that the chair has called 
for today's hearing. How we plan to tabulate the census 
information for the 2000 census is clearly an important issue 
that benefits from a full and open discussion.
    I would also like to share that in preparing for this 
hearing I learned a great deal. I've had a new education in the 
history of the census, how it's been conducted over the decades 
and territories from the 19th century to the present, and I 
look forward to learning even more from our witnesses today.
    I would like to commend the Delegate from Puerto Rico for 
the work he and the Governor have done on this issue. I 
understand that their hard work and partnership with the census 
has gotten us to the point where I believe we'll be having a 
very successful 2000 census on Puerto Rico.
    I had an opportunity to meet Governor--Delegate Romero-
Barcelo when he was Governor, literally, of Puerto Rico. I went 
and visited him there, and it's been an honor to work with him 
here in Congress.
    I look forward also to my colleague, Carlos Eni 
Faleomavaega from Samoa, who will be testifying. And we'll be 
hearing from other Delegates, too, maybe not in the hearing but 
in their prepared testimonies that they will submit.
    I am especially pleased to welcome my fellow New Yorker, 
Mr. Serrano, for having raised this issue in the first place. 
Regrettably, I think we have been too distracted with other 
issues and have been unable to focus on problems and policy 
issues like those that Mr. Serrano has raised here today. I'm 
glad that we have the opportunity to turn to them now. I'd like 
to take this opportunity, really, to thank Representative 
Serrano for his leadership and commitment, along with Mr. 
Miller's, in securing the full funding for the census.
    And I just want to note that in today's CQ Daily Monitor, 
Mr. Young states that we'll be going to a CR and that there 
won't be any extra emergency spending or policy provisions 
added on. So, we will need to make adjustments for the census 
to make sure the money is there for the ad campaign and all the 
other important things that need to go forward. So, your work 
continues, thanks to the work of the Census Bureau and 
partnership with the people of Puerto Rico.
    There is now the option of full inclusion of the people of 
Puerto Rico in the census data provided to the Nation by the 
Census Bureau. If, as Mr. Serrano suggests, the Census Bureau 
is to tabulate the people of Puerto Rico fully into the 
Nation's totals, that would mean that when the Census Bureau 
releases data on, say, the Nation's Hispanic population, the 
statistics would include the residents of Puerto Rico. 
Similarly, were we to talk about how many people of Puerto 
Rican descent there are in the United States fully integrated, 
the census data today would finally give us a number that 
actually includes the people on the island of Puerto Rico. By 
raising this issue early enough for its consideration, we in 
the Congress, the Census, and the people of Puerto Rico can 
make an intelligent policy decision on this matter.
    I look very much forward to the testimony by the Census 
Bureau. If there are sound scientific reasons for not including 
Puerto Rico, as requested by Representative Serrano, I look 
forward to hearing them. If not, I hope the Director will tell 
us what needs to be done so that all the people of Puerto Rico 
will not only be counted in the 2000 census, but fully 
tabulated, which I have learned is as important as being 
counted. Based on what I've learned so far, I think examining 
the issue of Puerto Rico counting strategy is the least we 
should do.
    Again, I thank you, Mr. Chairman, for holding this hearing 
and I look forward to the comments from my colleagues and other 
Representatives.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T1630.004

[GRAPHIC] [TIFF OMITTED] T1630.005

[GRAPHIC] [TIFF OMITTED] T1630.006

[GRAPHIC] [TIFF OMITTED] T1630.007

[GRAPHIC] [TIFF OMITTED] T1630.008

[GRAPHIC] [TIFF OMITTED] T1630.009

    Mr. Miller. Thank you, Mrs. Maloney.
    I would make one comment about the issue of the CR that 
very possibly will include Commerce Justice. We're very aware 
of it. I know Mr. Serrano, the ranking member, will be very 
supportive of the necessity for the census to have a higher 
amount of money as of October 1 because of the advertising in 
particular but also because of the dramatic buildup in the 
census that will be provided for us. So we have been in 
communication with the Census Subcommittee and with the 
Commerce Justice Subcommittee and Appropriation Committee to 
make sure that we have that taken care of. So, we need to be on 
top of that issue.
    Mr. Davis, did you have an opening statement?
    Mr. Davis of Illinois. Mr. Chairman, I do have a brief 
statement I would like to make.
    Thank you very much, Mr. Chairman. I want to thank you for 
convening this hearing.
    Regarding the facts of including Puerto Rico in the 2000 
U.S. population totals, as census day rapidly approaches, it is 
important that we continue to do everything that we possibly 
can to get the most accurate census. We cannot afford to have 
the significant undercount that we had in 1990. Of course, in 
my district alone, the undercount for African Americans was 
triple that of the undercount for Cook County. The undercount 
may have led to an underrepresentation in government and fewer 
resources like the schools' Head Start programs and senior 
citizens facilities. Thus, the question that confronts us today 
regarding whether Puerto Rico's census numbers should be 
included in the U.S. population totals for 2000 is a relevant 
one.
    The proponents for this argument, of course, that Puerto 
Rico is a territory, should be treated as the District of 
Columbia and have its numbers put in with the U.S. totals. This 
is an interesting, as well as I think relevant, concept.
    Of course, the opponents argue that allowing Puerto Rico's 
numbers to be included in the U.S. totals would disrupt the 
apportionment and the drawing of congressional districts. In 
addition, they argue the numbers would skew formula 
distributions of Federal moneys to States.
    Obviously, all of us want to ensure that the States receive 
fair resource allocation and representation based upon the 
populations, and that is why I think it's so important that we 
have this hearing today. I certainly look forward to hearing 
the views of Dr. Prewitt as it relates to the question. I also 
look forward to hearing any other information that he would 
have to share with us.
    I want to thank the witnesses, especially my distinguished 
colleagues, for not only their interest in the issue but also 
for bringing the issue to the forefront so that we can analyze 
it, look at it, better understand it and hopefully end up with 
a conclusion that provides the fairest, most accurate, most 
representative census that this country has ever seen. So I 
thank you very much, Mr. Chairman, and certainly look forward 
to the witnesses.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1630.010
    
    Mr. Miller. Thank you, Mr. Davis.
    If the first three witnesses, all Members of Congress, 
would please join us up here: Mr. Serrano, Mr. Romero-Barcelo, 
and Mr. Faleomavaega.
    Mr. Serrano, of course, is the ranking member of Commerce 
Justice, which has a very direct impact on the census since it 
funds the census. While I do not have a large Puerto Rican 
population, I do say I have some very important members of the 
Puerto Rican community because I have Mr. Romero-Barcelo's in-
laws in my district and so he does visit my district in 
Sarasota to visit his in-laws. We all joined Congress together, 
both Mr. Faleomavaega and Mr. Romero-Barcelo.
    Mr. Serrano.

STATEMENT OF HON. JOSE E. SERRANO, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Serrano. Thank you very much, Mr. Chairman.
    First, let me say that I remain totally committed, as the 
ranking member of the Appropriations Subcommittee on Commerce, 
Justice, State and the Judiciary, to making sure the census 
gets complete funding. That is an issue you know we fought on 
that subcommittee, and we will continue to fight. As we go 
forward, we will do everything that we have to do to make sure 
that the census gets the proper funding on time so it can do 
the work that it has to do.
    Second, Mr. Chairman, I want to thank you in a kind of 
amazed way for calling this hearing and putting it together. 
I'm amazed because I'm finding out as I get older in politics 
that sometimes what appears to be the simplest of issues 
becomes the most discussed of issues, and sometimes the more 
complicated issues get very little discussion.
    When I first proposed this in 1990 and then again in 1993 
and most recently with the language we are examining here for 
me, it was such a simple issue that I thought I would either 
get a quick yes or a total ignoring--which happened for years 
until you came along--ignoring of the issue but never the 
attention that it's getting now. So I thank you, in some sort 
of amazement, that this very simple issue has become such a 
topic of discussion.
    I see it as simple, Mr. Chairman and members of the 
subcommittee, because to me the relationship between Puerto 
Rico and the United States has always been based on citizenship 
and not necessarily on the status question. And so, until we 
resolve the status question of Puerto Rico--and we will some 
day, I am hopeful--I think we have to take seriously the 
citizenship question.
    And the question arises, how is it possible that 4 million 
Puerto Ricans on the island, most of which are U.S. citizens--
Puerto Rico is no different than any other part of the United 
States. Under the American flag there are X number of people 
who are living there who are not citizens yet--close to 4 
million people never get included in the census figures as part 
of the national count.
    Now, one could argue that this is a constitutional issue. 
Well, I submit to you that the Constitution in many ways is a 
work in progress that needs our interpretation of what the 
framers and the founding parents wanted it to be. In their 
time, there was no envisioning of American citizens living 
outside our territory except if they were on travel or in the 
diplomatic corps or on business. But certainly there was no 
talk in those days about the possibility ever of granting 
citizenship outside the United States, if you will, and how to 
deal with that.
    So, now we find ourselves in 1999, and since 1917 there are 
American citizens who don't get included in our census count. 
They are an addendum to our census numbers. And I don't think 
any American should ever be an addendum to any other American.
    The irony of the situation, and the thing that has made me 
much more aware of the need to change this is the fact that an 
undocumented alien who lives in my district gets counted in the 
national figures but an American citizen who lives in Puerto 
Rico does not get included in the national figures. Now, that 
does not make sense at all.
    And then the question to me is, when the census tells me 
that there are X amount of people living in my Nation, what are 
they talking about? Well, up to now, they've been saying X 
amount of people living in the 50 States. I want to change that 
to X amount of people living under the American flag because--
understand that these are folks who are subject to every 
Federal law that's in place, every allocation and every rule or 
regulation that is in place and yet, when that family is 
counted, these folks become an addendum.
    Now, let me be clear on one thing, Mr. Chairman. I don't 
know what my brother Carlos' position is on this, but, for me, 
the language I presented to the Appropriations Committee and 
the issue I have brought up since 1990 never spoke to anything 
having to do with the status issue. It never spoke, nor does it 
speak now, to distribution of funds. It cannot speak to 
apportioning of districts, because Puerto Rico does not have 
Members of Congress as such. So, it cannot speak to that at 
all. It doesn't speak to any allocation of funds. It speaks 
only to the issue of how do you not include in your family 
count 4 million members of the family?
    I also did not include in my language other territories, 
although I would like to have them included, because I know 
that to make any one of these changes we really have to hear 
from the representatives from those areas. This is something 
that the government of Puerto Rico and its representatives are 
in favor of in the Puerto Rican community and that people 
throughout the 50 States are in favor of.
    Now, we include at present the District of Columbia's 
population in our total count. It does not get included as an 
addendum and yet it is separated for purposes of 
reapportionment because they do not elect Members of Congress. 
So, we've done this already.
    And so, at the expense of setting a record for the shortest 
presentation ever on a very serious issue, I would just like to 
be able from now on to say that the census reflects the count 
of all residents, be they citizens or not, who live under the 
American flag. The census should reflect the relationship under 
that flag, which says that these are American citizens and/or 
residents who are totally within our laws, totally within our 
behavior, totally within our rules and regulations.
    How interesting that we know and include in our total 
figures many people from Puerto Rico at one time or another. 
How many people are serving in our armed forces, or at one time 
or another are seeing action in battle, but we don't know or 
include as part of the family the total population of the 
island. In the future, as Mrs. Maloney said, I would like when 
we say there are X number of Hispanics in our country to 
include those who live in Puerto Rico. While I as a Puerto 
Rican New Yorker now say there are 4 million Puerto Ricans in 
Puerto Rico and close to 3 million in the 50 States, I would no 
longer have to make that statement. I could simply say there 
are close to 7 million Puerto Ricans under the American flag. 
And that is the way we behave from now on.
    Now, as far as the data. As you know, this year the Census 
Bureau will be in Puerto Rico as it never has been before. The 
Puerto Rican Government and its representatives are doing a 
marvelous job getting the people involved in the census, as 
they have in the past. So, at the expense of sounding like I 
know as much as the Census Bureau, there is nothing really that 
has to be done differently than is being done now. All that is 
needed is the will to say--when we submit the figures--there 
will not be a line that includes other people under it, but all 
Americans and all people who reside next to Americans in the 
territories and States will be included.
    For me, that is an important issue because, as we look to 
the future relationship of these two places, one the place 
where I was born and one the place where I grew up and that I 
represent in Congress, we have to take care of some unfinished 
business before we move forward. And, if in 1917 everybody in 
Puerto Rico was made a citizen, then we should be counted as 
part of the American family, and I would hope that the 
subcommittee sees it that way.
    Thank you.
    Mr. Miller. Thank you, Mr. Serrano.
    Mr. Romero-Barcelo.

   STATEMENT OF HON. CARLOS A. ROMERO-BARCELO, THE RESIDENT 
 COMMISSIONER IN CONGRESS FROM THE COMMONWEALTH OF PUERTO RICO

    Mr. Romero-Barcelo. Mr. Chairman, Ranking Member Mrs. 
Maloney, Mr. Davis, it's a pleasure to be here today.
    For the record, I want to state that my name is Carlos 
Romero-Barcelo. I am the sole elected Representative in 
Congress of the United States of the 3,800,000 disenfranchised 
American citizens in Puerto Rico. This is part of what the 
problem is--and I appreciate this opportunity.
    This is kind of like the chicken and the egg, which came 
first, because the fact that we're not included in the data 
then gives rise to many other discriminations. And when we say, 
well, why are we treated differently in Medicare even though we 
pay exactly the same amount that everybody else does, they say, 
well, we don't have the data. So, this is one of the reasons 
why it's so important for us to be fully included in the 
census, to be counted as part of the family, as Mr. Serrano 
says.
    And, until recently, Puerto Rico and the other territories 
were excluded from the U.S. census totals and reports as part 
of the U.S. population, and this resulted in the critical 
undercount of Hispanics and other minorities in the Nation, 
with corresponding impact on the allocation of Federal 
resources, including even the Post Office, even in the Coast 
Guard until very recently when several Members of the Congress 
had gotten involved because of the drug trade that was shifted 
from Florida to the Caribbean and particularly through Puerto 
Rico.
    The U.S. summary reports of the census of population and 
housing, for instance, omit Puerto Rico and the territories. 
Although the same information that is collected for the 50 
States is collected for Puerto Rico, it is published in a 
separate series of reports and is excluded from the U.S. total 
counts. This segregation of information has caused many of the 
Federal Government agencies and congressional committees that 
exclusively rely on the U.S. summary reports for Federal funds 
distribution to routinely omit Puerto Rico and the territories. 
The omission in return results in the arbitrary allocation of 
resources to Puerto Rico and is particularly felt in the most 
significant safety net programs, including health.
    I asked many times who is responsible for the national 
policy that determines that the health and the lives of the 
U.S. citizens who reside in Puerto Rico are worth one-tenth of 
the health and the lives of the other U.S. citizens. The 
President, when I made that statement in a meeting that we had 
of about 200 people, he said, Carlos, what do you mean we value 
it at one-tenth? Because that's all we get. One-tenth in 
Medicaid. That means our health and the lives of the U.S. 
citizens of Puerto Rico, that's what they're worth. When you 
try to do anything in HHS, they say, well, we don't have the 
figures for Puerto Rico.
    This is why it has become so important. If there's going to 
be any shift in policy then at least the facts were there, the 
numbers were there, the data was there. And in Medicare, for 
instance, we pay into it, and even though we pay into it, the 
benefits are not exactly the same in Medicare; and then, at the 
same time, the payments to the providers are completely 
different; and the excuses that we're being given, also the 
facts are not there.
    So since my election in Congress, it has been my objective 
to ensure the American citizens in Puerto Rico receive equal 
access to and treatment in all the Federal programs and 
services, and this is one of the main barriers I ran across.
    This is not a new problem. I want to point out that the 
national census had been administering Puerto Rico since the 
early 20th century, albeit with a slightly different 
questionnaire. When I became aware that one of the problems was 
the questionnaire, I met with the people in Puerto Rico, I met 
with the Secretary of Commerce, then Ronald Brown, and I met 
with people in the Bureau of the Census, and I talked to them. 
We analyzed this problem.
    The census people from Puerto Rico came over here, the 
planning board people of Puerto Rico came over here to meet 
with census officials, and now we're finally ready to include 
Puerto Rico in all of the count, but then we will be separate 
and we will not be included in the totals, as Mr. Serrano has 
indicated. But I am pleased that after my continuous prodding 
in the meetings with the Federal officials and the OMB in the 
White House and this past January 6, 1999, at a meeting with 
Ken Prewitt, the administrator for the census, the inclusion of 
Puerto Rico in the national summary data products for the 
census 2000 was achieved.
    We're very happy about this and proud of this achievement 
for Puerto Rico. It will mark a significant turning point in 
the data collection and resource allocation efforts starting 
with the critical census of 2000. This is a step in the right 
direction to ensure that the census is fully representative of 
the entire population, particularly the American citizens who 
reside in Puerto Rico and the other territories.
    There is one additional issue that we are now bringing to 
your attention. I would like to request your support also in 
the future of the data collection for the Nation in the 
American Community Survey, or the ACS as it is commonly known, 
and I urge you to ensure that Puerto Rico is included in this 
important survey as it is implemented in the next decade.
    Finally, I would like to say for us also it is important to 
be considered as part of the family. I think if you're excluded 
from the total count of the population of the United States and 
the U.S. citizens of Puerto Rico are not there, it's like we 
are an appendage. We're something separate, something 
different. I think that creates many, many problems from there.
    And, as Mr. Serrano very ably pointed out, there's no 
problem as far as the distribution count and the geographical 
distribution and how many Representatives each State is going 
to have and where they're going to be distributed, because that 
has always been done with the District of Columbia. It has 
always been separated. All they have to do is subtract the 
number from the total and you deal with the rest of the number 
for that purpose. But for other purposes, it is important for 
us be considered as part of the Nation and not separate, at 
least in the data. The policies and the issues, we can deal 
with that separately some other time.
    Thank you very much.
    Mr. Miller. Thank you.
    [The prepared statement of Hon. Carlos Romero-Barcelo 
follows:]

[GRAPHIC] [TIFF OMITTED] T1630.011

[GRAPHIC] [TIFF OMITTED] T1630.012

[GRAPHIC] [TIFF OMITTED] T1630.013

[GRAPHIC] [TIFF OMITTED] T1630.014

    Mr. Miller. Mr. Faleomavaega.

STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN CONGRESS 
                      FROM AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. We certainly 
appreciate your kind invitation to allow us to come and testify 
this morning, certainly with my distinguished colleagues, 
Congressman Serrano from New York and my good friend Resident 
Commissioner Romero-Barcelo from Puerto Rico.
    At the outset, Mr. Chairman, I just want to make sure 
there's no misunderstanding of the reason I am here. I do fully 
support Congressman Serrano's proposal about the inclusion of 
Puerto Rico in the counting process.
    This is my sixth term, Mr. Chairman, here in Congress, and 
I find it very interesting reading through many bills and even 
reading through some of the laws that we have on the books, the 
50 States, Puerto Rico, and the District of Columbia are always 
included but, to the rest of these areas, it's a common sea. 
Sometimes we're treated like foreign countries.
    The irony of all this, Mr. Chairman, as Congressman Serrano 
stated earlier, is it all right to count for 2 million plus 
Puerto Rican U.S. citizens living in the 50 States, but not 1 
U.S. citizen living in Puerto Rico is counted as part of that 
process.
    For the benefit and information of the committee, despite 
the fact that American Samoa has had almost a 100-year 
relationship with the United States, it was not until 1990 that 
the first census count was ever made for American Samoa by the 
Census Bureau. How all this came about I don't know, Mr. 
Chairman, but I just wanted to bring that to the attention of 
the members of the committee.
    I recall the comments made earlier by one of our former 
Members who represented Guam years back, a retired Brigadier 
General in the Marine Corps, General Ben Blaz. He made this 
statement, Mr. Chairman, that I always think seemed so 
applicable sometimes to the situation of those of us who come 
from the insular areas. General Blaz said, we are equal in war 
but not in peace.
    Mr. Chairman, it's always easier to print money in terms of 
building equipment and hardware and bullets and all of that, 
but I think for the sons and daughters of the insular areas who 
put their life and blood on the line in defense of our Nation, 
that should at least count for something. I sincerely hope you 
will take it from that perspective.
    Mr. Chairman, as Congressman Romero-Barcelo explained 
earlier, under current procedures, the Census Bureau collects 
census data from the 50 States, the District of Columbia and 
the insular areas which include American Samoa, CNMI, Guam, the 
Commonwealth of Puerto Rico, and the U.S. Virgin Islands. These 
totals then are combined in many different ways, but the 
primary results are tabulated, totaled and analyzed based on, 
``U.S. totals,'' which include the 50 States and the District 
of Columbia, but not the insular areas, including Puerto Rico.
    It's my understanding, Mr. Chairman, that part of the 
reason for this methodology is that the insular areas do not 
use the same census forms that are used in the 50 States and 
the District of Columbia. Over the years, the Census Bureau, in 
consultation with the insular areas, has developed distinct 
census forms which adjust for each location's unique situation.
    Our local governments have worked for years to develop 
forms which accurately tally meaningful data. In some cases, 
and in this regard I will speak only for American Samoa, the 
use of the standard census form in the insular areas will 
result in distorted data because of the cultural differences 
which are manifested in different familial relationships and 
living patterns. For example, in the United States, freehold 
and leasehold interests in real property are the norm, while in 
American Samoa the great majority of land is communally held by 
families and villages. The value of this communal land is not 
easily determined and, as a result of this distinction, census 
questions of the value or size of a person's land holdings or 
family residence will yield entirely different results in 
different areas.
    Mr. Chairman, I'm not here to speak in opposition to 
efforts to include the data from the Commonwealth of Puerto 
Rico in the State and D.C. totals. Puerto Rico is many, many 
times larger than the rest of us combined, including many 
States as well; and in many respects I understand the value to 
Puerto Rico and to the Nation as a whole of including the data 
on the 3.8 million U.S. citizens who live in Puerto Rico. This 
is, after all, 1.5 percent of the Nation's total population and 
to exclude them is a distortion of data, in my humble opinion, 
in and of itself.
    I would suggest, however, if Puerto Rico is included in the 
State totals that, to the extent possible, the other insular 
areas should also be included. I say to the extent possible, 
Mr. Chairman, because--and again at this point I can speak only 
for American Samoa--the most useful data in American Samoa is 
obtained from the forms derived by the joint effort of the 
Census Bureau and the local government. Under no circumstances 
would I support forcing the insular areas to use the standard 
census forms over local objections. I think this is where the 
rub comes, the problems that I'm faced with as far as 
representing an insular area.
    Mr. Chairman, I know there are broader issues involving the 
subject under consideration this morning, but hopefully my 
discussion will convey the position of American Samoa and the 
narrow points I have just addressed to the members of the 
committee. Mr. Chairman, I sincerely hope that this can be done 
in the upcoming census.
    I don't think I would be the last person to submit that as 
you know, it's required by the Federal Constitution. Every 10 
years there's to be a census taken. Not only does it have far-
reaching economic and social implications--as you well know, in 
the 1990 census, there was an undercount of well over 5 million 
Americans. Unfortunately, it got to the height of political 
partisanship; and I sincerely hope that that won't happen in 
the census taken next year.
    But, at any rate, I just want to thank you for letting us 
come and testify.
    Mr. Miller. Thank you.
    [The prepared statement of Hon. Eni Faleomavaega follows:]

    [GRAPHIC] [TIFF OMITTED] T1630.015
    
    [GRAPHIC] [TIFF OMITTED] T1630.016
    
    [GRAPHIC] [TIFF OMITTED] T1630.017
    
    [GRAPHIC] [TIFF OMITTED] T1630.018
    
    Mr. Miller. We will proceed now under the 5-minute rule.
    This issue, which I became aware of when it came up during 
the appropriation process, sounded a little simple, but once 
you start delving into it there are real complications. You 
mentioned how we count illegals in the United States, but we 
don't include our total residents in Puerto Rico.
    We had a meeting earlier this year concerning Americans 
living abroad. I don't know if you realize this, but we have 
several million Americans who live abroad--retired Americans, 
maybe working with Xerox, IBM, or something abroad. They have 
U.S. citizenship, they pay taxes, and they vote in this 
country, but they cannot be counted in the census. So, it gets 
very complicated and technical, the reasons why.
    We'll hear from Dr. Prewitt in a few minutes about some of 
the things.
    Part of the question that gets raised, as Dr. Prewitt I 
think will make in his statement, is a major policy change on 
statistics. I understand why there is concern here. But on the 
technical side, have you all had any discussions with 
statisticians and such?
    I don't have a position at this moment, but if we did it, 
you are comparing apples to oranges, for example, comparing 
unemployment data. What do you do with something like that? 
Have you looked at it from position of our national statistics? 
It's not just unemployment but all of our statistical data.
    Mr. Romero-Barcelo. The same thing that was done whenever a 
new State was admitted to the Union, exactly the same thing. 
Every time a new State was admitted to the Union, they have to 
compare the new census with the past census. You need to make a 
comparison. All you need to do is make the proper adjustments. 
With the computers today and their programs, there's no problem 
to make the proper comparison, to make the proper inclusions. I 
don't see any real problem with that.
    Mr. Serrano. Not only that, Mr. Chairman, but every 10 
years our population grows. So what I'm suggesting is that this 
time it grows by another 4 million in addition to whatever it 
grew otherwise. So the same data that you collect, the same 
information that you need, the same growth will take place.
    Mr. Romero reminded me during the last presentation that 
one of the interesting points about this is that Puerto Rico, 
compared to the States, is larger in population than 26 or 27 
States of the Union, yet those figures are not included, as I 
keep saying, in the American family. So, I really don't see 
what the problem would be.
    If the census is doing the job that we know they are doing 
and they're capable of doing, if the American population grew 
by 20 million or 10 million in the last 10 years, under my plan 
it would grow by 14 million and those 10 million that it grew 
by, well, those employment or unemployment rates were not 
included in the last census. Their ownership of TV sets, cars, 
or homes, or lack thereof, was not included in the last census. 
Their ages were not included. Their ethnicity was not included. 
So, that would just be more numbers, instead of 10, 14 million.
    Second, keep in mind that, in the case of Puerto Rico, and 
certainly the other territories, but in the case of Puerto 
Rico, all the questions that need to be asked are already on 
our census form. There is a specific area for marking yourself 
down as Hispanic. There's a specific area for marking yourself 
down as Puerto Rican. And those who live in Puerto Rico who are 
either African-American or, ``white Americans or Dominicans or 
Colombians,'' they're all already part of the study. So, 
nothing new has to be invented.
    And Mr. Romero's last comment during his presentation I 
can't emphasize enough. He made a beautiful, as he always does, 
presentation not only about this issue but also for equality 
for Puerto Rico. But he said those policy issues can be 
discussed later. I think we have to be clear about what we're 
discussing here, including the numbers. Nothing changes, 
unfortunately. But nothing changes in terms of how Puerto Rico 
gets treated by the United States. That would take other major 
decisions to be made. The numbers are my concern. Living under 
the American flag issue is my concern.
    Now, one last point on the Americans living abroad. That is 
an issue that we dealt with for many years, and we 
unfortunately haven't gotten to a solution. I don't know what 
the answer to that one fully is, but it's clear to me that the 
Puerto Rico issue is much simpler because those folks are all 
living under the American flag and following all American laws 
and subject to all American rules and regulations.
    Mr. Miller. Technically, I'm assuming the Bureau is capable 
of including the numbers. Of course, a giant step forward is 
they're going to be doing the same methodology this year and 
collecting the same data as in the States.
    My time is up. What's your sense of how the census is doing 
as far as preparing for the census, awareness of the census and 
the ability to get a successful census in Puerto Rico?
    Mr. Romero-Barcelo. It's going very well. I think the 
census has always done a very good job in Puerto Rico. They're 
prepared for it. We have a very, very organized system of 
outreach to get to the people because our political parties are 
very, very organized and we have a large proportion of the 
mainland registered. They have the aerial photos of the 
sections of all of Puerto Rico. They know where each house is. 
They distribute that very carefully. They're doing it every 4 
years. A lot of people do it. When they get recruited for the 
census to do it, everybody is prepared. They know how to do it. 
I think the census is doing a very good job.
    Mr. Miller. Mr. Faleomavaega, do you have any sense of how 
the census is prepared in American Samoa?
    Mr. Faleomavaega. Certainly. From this 10-year experience 
we've had since the 1990 census, we've gotten a lot smarter in 
the procedure, and certainly the Census Bureau has been very 
receptive and responsive to the concerns and how the data is 
being collected, and so we're pretty happy with the way things 
are proceeding right now.
    Mr. Miller. Thank you.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    In response to the comments on counting Americans abroad, I 
introduced legislation that I believe the Census Bureau 
supports that really would require us to make sure we count in 
the next census Americans living abroad. It calls for a dry run 
between now and the next census. They should be counted.
    I would like to ask the Delegates their response. And, 
Congressman Serrano, one option that's been discussed is for 
the Census Bureau to include Puerto Rico and the other 
territories in the U.S. totals in print and for electronic 
publications but make it easy for people to subtract, to 
include or exclude these areas from the census if need be. Does 
that sound like a good solution or a compromise to each of you?
    Mr. Serrano. At the expense of being dramatic, I don't like 
the idea of subtracting any American citizens from anything at 
any given time. I don't know why you would say we are counting 
American citizens who live under the American flag, who serve 
in the armed forces and die for this country, but if you want 
to you can subtract them. That's similar to the time that the 
Delegates got a vote on the House floor, something we Democrats 
did, and then said, however, if it determines a bill, it 
doesn't count--an amendment that was kind of bizarre.
    Just to show you how bizarre the situation is, Mr. Romero 
just pointed out to me--and he's been giving me a lot of great 
side comments--if a Puerto Rican American citizen moves from 
Puerto Rico to New York, New York gains in population. But when 
a Texan moves to California the Nation doesn't gain in 
population. This is so bizarre. It should gain--here we go 
again--for purposes of reapportionment, right, but the American 
population of the United States should not go up by one because 
an American citizen moved from one place under the flag to the 
other, but yet it does under the present system. So, this 
exclusion thing I would not be in favor of, that we're either 
in or we're still out, but we shouldn't be in and on a given 
Tuesday morning we're out.
    Mrs. Maloney. Any other comments?
    Mr. Romero-Barcelo. It depends. I don't want to differ from 
my colleague, but, for instance in the distribution for 
election purposes, there has to be a subtraction. Perhaps you 
have an asterisk or something, make sure this includes 
populations of Puerto Rico, whatever else, and then you just 
have to make the subtractions. The figures will be there, and 
you make the subtraction. At least for the distribution, 
election distribution, you need to make the subtraction. I have 
no problem with that.
    Mr. Serrano. They should do that the same way they do the 
District of Columbia now.
    Mr. Faleomavaega. I would like to associate myself with the 
comments made earlier by Mr. Serrano. I think this has always 
been the rub for those of us coming from the insular areas. 
Today we're considered U.S. citizens and equal, and then 
tomorrow we might look like we're aliens.
    We're having a very similar problem right now in our 
campaign financing laws. Some Members think permanent resident 
aliens should not participate. I, for one, certainly support 
the concept. In fact, currently under the laws that we have in 
campaign financing, permanent resident aliens can contribute to 
Federal contributions. The fact is this is someone who's 
legally here, paying income taxes, working like anybody else, 
and hopefully, in the 5-year period, applying for U.S. 
citizenship.
    Now, here's an even more interesting situation, where here 
again some of the quirks of the law is that we're not U.S. 
citizens but we're U.S. nationals. Under the current 
immigration laws specifically, and I can memorize this thing 
practically, a U.S. national is someone who owes permanent 
allegiance to the United States but who is neither a citizen 
nor an alien. Figure that out.
    Mrs. Maloney. The census questionnaire for Puerto Rico is 
the same as that used in the rest of the United States; is that 
correct?
    Mr. Romero-Barcelo. For this year, for the first time, it 
will be. That's because we got together with the census and 
made the agreement. Apparently, there was a difference, as Mr. 
Faleomavaega had indicated, for all the territories.
    Mrs. Maloney. Then I understand, for the territories, the 
questionnaire is somewhat different, and Mr. Faleomavaega 
mentioned it, that communal property was one example of how it 
was different.
    I'd like you to elaborate in other ways how the census form 
might be different, and I'd like to know whether you think your 
government should conduct the census or the Census Bureau 
should conduct the census and why do you believe that the form 
that you use should be different from the census form used by 
everyone else.
    And I'd like the Delegates please to share with us the 
experiences you've had with your government in working with the 
Census Bureau to develop the 2000 census. Have they been 
responsive? Have they worked with you? Describe some of the 
interactions that you might have had.
    And could you elaborate a little more on how the census 
data is used in your territory?
    And, again, I just thank you for coming.
    Mr. Faleomavaega. If I could just say very briefly, if 
we're making such an effort to find out how many illegal aliens 
are in our country, the least we can do as a government is find 
out how many U.S. nationals, how many U.S. citizens we have in 
this government. It seems to me that that's the bottom line, in 
my humble opinion.
    Mr. Romero-Barcelo. As far as I know, the government at 
home is working very closely with the Census Bureau, and we 
have had no problems. We've been in touch. We've talked several 
times throughout the year, and they never complained to me 
about any problems at all with the Census Bureau. Everything 
seems to be working all right. We changed the form, and I think 
there was no real valid reason for having different 
questionnaires in Puerto Rico, and we feel if that was an 
obstacle, that's been removed.
    Mrs. Maloney. I tell you, Mr. Chairman, possibly we should 
have a field hearing in Puerto Rico, especially in January. I 
think it would be very important to go and see exactly how the 
field offices are working.
    Mr. Serrano, I would love it if you could arrange for at 
least 2 or 3 million citizens to move to New York for purposes 
of the count for New York City for distribution of aid and all 
that.
    Mr. Serrano. I understand Mr. Romero wants them to stay 
there in anticipation of something else for himself.
    Let me just say that I'm a big, big supporter of the Census 
Bureau. I think they're doing a fabulous job. I've always said 
they're professionals who know what they're doing, should be 
given all the support--criticism when it's necessary--but all 
the support, and left alone to do this job. And I think that 
they will handle the count properly throughout this country. 
And if given the extra responsibility, they're going to handle 
the census count in Puerto Rico. All they have to do is add the 
numbers. The computer can do that in half an hour.
    Let me just close this comment by saying to you that, 
again, I can't overemphasize how dramatic this issue is. I'm a 
Member of Congress. There is no greater proof, I guess, of 
citizenship. The Constitution is clear that you have to be a 
citizen to be a Member of Congress. And yet, if I retire from 
Congress and move to Puerto Rico, I no longer get counted in 
the census any longer. Now, my citizenship just sort of dropped 
off the side of a table by moving there. At least as I envision 
my retirement, let me get counted wherever I go.
    Mrs. Maloney. I'd just like to note that Congressman Ford 
has joined us, another member of the committee.
    Mr. Ford. I'll be there in Puerto Rico if you want to hold 
a hearing.
    Mr. Faleomavaega. Mr. Chairman, definitely, no way would I 
ever want to compare the numbers with my good friends here from 
Puerto Rico, but I do personally invite all of you to come to 
American Samoa.
    Now, I know with the last count there was supposed to be 
120,000 members of my tribe living in California, but you talk 
about being undercounted. The last Census Bureau count was only 
30,000. Now, according to our numbers, we have currently about 
20 Samoans that currently play in the NFL, and I think that 
maybe this is probably our best export in the coming years. But 
I do want to thank the chairman and the Members for allowing us 
to come and testify.
    Mrs. Maloney. I want to thank the Members for their 
insights and passion and commitment and particularly for their 
strong words supporting the professionals at the Census Bureau 
to get the best count possible. That's important not only with 
the dollars that Mr. Serrano and Mr. Miller worked on, but 
really supporting their independence and moving forward to get 
an accurate count. Thank you.
    Mr. Miller. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    As I listen to the discussion and as I try to understand 
the issue, it seems to me when people think of census-taking 
and when they think of individuals being missed, the first 
thing you think of is apportionment. That is, you think of 
political representation and the ability to be represented and 
the possibility of being represented. And I'm hearing that what 
we're talking about really would not affect in any way that 
line of thought or that process.
    Then people think of resource allocation. They think of a 
direct relationship between the numbers of people, their 
socioeconomic characteristics and the ability to receive 
resources from their Federal Government.
    And I was just thinking, when Moses started taking the 
census, what resources were they going to distribute, or were 
they going to divide the manna up from heaven in some other 
way? Which really takes me to my question and the issues that 
I've heard many people express in terms of any concerns that 
they would have.
    If we move to the point of counting the individuals in 
Puerto Rico and in some of the other territories the very same 
way, would this in any way skew the distribution of resources 
differently than what currently exists, even to the extent of 
having socioeconomic data that may cause planning to be done 
with more information or with different information that may 
put resources into categories or areas of concentration 
differently?
    And so it seems to me there is a purpose that sometimes 
people don't look at, and that's the purpose of the need to 
know. That is information generated based upon the concept of 
the need to know. Because I don't think Moses was elected by 
anybody. I don't think he was. If he was, I didn't hear about 
it, and I'm not sure that they had Medicaid and Medicare. 
Didn't seem to me that they had day care and Head Start. So 
would this change in any way or skew in any way the allocation 
of resources?
    Mr. Serrano. This discussion has been going on in Puerto 
Rico for years, way before I was in politics, but as a person 
who first originated some language to include somewhere and 
brought up the issue, I've always understood that the 
relationship between Puerto Rico and the United States gets 
settled in different forums within this House. It does not get 
settled in a census count.
    Let me be clear on that. Nothing that I have proposed 
changes in any way because it can't under census rules. Census 
rules can't change the distribution of funds to Puerto Rico.
    What I'm after, first of all, and then I'll quickly answer 
your question, is a matter of what is fair, what is right and 
what is correct in what the count of people who live under the 
American flag is; and I think I've made that clear.
    But I don't think it would hurt if you also knew that 
living under the American flag are people who lived under a 
certain index of poverty. I don't think it would hurt us to 
know if people living under the American flag have a certain 
number of high school graduates or high school dropouts or 
doctors or lawyers graduating locally. What's interesting about 
it is no one should panic at the thought of setting off a chain 
of events by including these numbers in the American family. In 
past years, but starting this year in a very official way, data 
will be collected anyway in Puerto Rico and that data will be 
looked at by people in different parts of the country as they 
look at the whole American picture.
    My whole point continues to be, as simply as I can put it: 
Don't exclude American citizens from being counted.
    Then this conversation continues, Mr. Davis, on a daily 
basis. How should we treat our territories? How should I stand 
clear on this? I have always felt American citizens should be 
treated equally, but this doesn't speak to that. That's another 
discussion in another forum. This speaks about including these 
numbers properly. I repeat for the last time, though, if that 
information is available, there's nothing wrong with having 
that information because we should know at all times how people 
live under the American flag and under what conditions.
    Mr. Davis of Illinois. Thank you.
    Mr. Romero-Barcelo. I would like to add something to what 
Mr. Serrano said.
    There are two parts to this. What Mr. Serrano is trying to 
get through with this amendment is merely to have the figures 
collected in Puerto Rico included in the totals of the Nation 
so that we're counted as part of the Nation. And the figures 
for Puerto Rico now will be collected separately and will be 
made part of the census and all 50 States will be there, and 
Puerto Rico will be at the end. All the figures will be 
collected.
    Those figures on that side, that decision has already been 
made. They will not provide for any policy change, but they 
will provide the facts and the data if there is to be a policy 
change in regards to distribution of funds. Then, the facts 
will be there.
    Now, if we want to get a policy change on a distribution of 
funds, one of the first things that the policymaker shows, we 
don't have the figures in Puerto Rico. We don't have the facts. 
So, they're building an obstacle that prevents them from making 
any change in policy. That's why I said, like the story, which 
came before, the chicken or the egg? Because when you try to 
make a change, the big excuse is that the facts are not there. 
I think we should remove that excuse from the table and then 
just deal with the policy issue.
    Mr. Serrano. Mr. Chairman, if I may add something very 
quickly to that?
    Our language doesn't change. The census already decided 
that they're going to take this count in Puerto Rico so the 
policy change could come with those figures regardless of 
whether you're involved in the American family or not.
    Mr. Faleomavaega. I think, Mr. Davis, I appreciate your 
question. In my limited reading of the good book, Moses was a 
great prophet, but he was a poor administrator, so he had to 
depend on his father-in-law, Jethro, to tell him how to 
administer the kingdom. But I think, in line with what 
Congressman Serrano and Mr. Barcelo stated, the fact of the 
matter is these figures, these statistics, do not exist and how 
is the Congress ever going to better address the issues?
    You know, the thing that really bugs me is that walking 
down Independence or even down Pennsylvania Avenue, we have our 
fellow Americans sleeping on the streets, begging for food and 
to think that this is the most powerful and the most prosperous 
Nation in the world, and we have this existing right in our own 
backyard. It's the same thing that I would feel as coming from 
an insular area. I feel like we're in the backyards, feel like 
we're not being counted, feel like we're not being included as 
part of the process. I could not agree more with what my friend 
Congressman Serrano and Resident Commissioner Barcelo have 
stated.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Miller. Mr. Ford.
    Mr. Ford. Thank you, Mr. Chairman.
    My colleague, Mr. Romero-Barcelo, really answered my 
question with his last response. That's really the only 
question I had. Always delighted to be with my colleague, 
Congressman Serrano. I want to make sure I stay on his good 
side. As I ponder a Senate race, I want to make sure I keep Mr. 
Serrano on my side.
    Mr. Serrano. You're doing a great job with that.
    Mr. Ford. I yield to Mrs. Maloney.
    Mrs. Maloney. My good friend Eni and Mr. Davis raised 
Moses. If I remember, Moses traveled through the desert for 40 
years because he didn't have a plan. So, what we really need to 
do is see how this plan fits into the plan so that we do get an 
accurate and good census.
    I just have one last question, and it was sparked by the 
comment of Mr. Serrano at the beginning. He said there's a 
citizenship question and there is a status question and the 
citizenship question should be separate from the status 
question. Could you clarify for me where are we going with the 
status question? I know there was a vote. Is there another vote 
coming up? And if Mr. Faleomavaega would like to clarify the 
status question, also. But that's my last question.
    Mr. Serrano. Let me just respond briefly on that.
    I believe that the status question is a serious question 
which has to be settled and leads to all other issues. I have 
been very clear that independence and Statehood are very 
acceptable to me as dignified options but that the Commonwealth 
status is a second-, third-, fourth-, fifth-class citizenship 
that is unacceptable to me. I'll give you reasons.
    If you and I now move to Puerto Rico, we'd have a wonderful 
time, but I can no longer vote for a President. I can no longer 
vote for a Member of Congress. I can no longer get any 
representation properly. On the other hand, we're not an 
independent nation that can set its course throughout the 
world. So, how you feel about that, that's one issue.
    There has never been--and this is the solution to me--there 
has never been an option presented by the government that holds 
the colony, the U.S. Government, our Congress, saying here it 
is. You choose this or you choose that. And either say I will 
give you what you choose or at least say by a certain date, as 
the Young bill said and why I supported it, by a certain date I 
will take up the option you pass so that you know where you 
stand with us.
    This is totally my personal view that we should include 
options that end the colony. Either integration into the family 
or separation from the family, but it should not include any 
more colonial.
    Let me close with this. On some other issues we've been 
discussing recently, I've been saying for people like me, we 
look at the United States, in my case, as my father and Puerto 
Rico as my mother and for over 100 years, my father has held my 
mother in a very unfair relationship. I think it's time for 
him, for my father, to either legitimize the relationship or to 
let my mother go, but this continued bondage in some way is 
totally improper and should end.
    Mr. Romero-Barcelo. With respect to when we're going to 
have a vote, I think there's a consensus in Puerto Rico that we 
should try to get a bill through the House and the Senate 
sponsoring the referendum in Puerto Rico because then we will 
be able to say this is what Congress is willing to accept, 
willing to grant the people of Puerto Rico. We've had too many 
privately state on their own, where people are willing to say, 
well, we asked for it; what's going to happen? And the 
opposition always said, if Puerto Rico asks for Statehood, it's 
not going to be granted because there's a lot of prejudice in 
the Nation. That's how the opposition tries to beat down 
Statehood, and people are afraid to ask for something that will 
be denied because they're too proud. So unless and until 
Congress makes the statement clear, I think we will not have a 
real, valid referendum. But as soon as that happens, we'll have 
one, that's for sure.
    Mr. Faleomavaega. One of the unique features of being 
classified as a U.S. territory, if I may--for example, in 
American Samoa, American Samoa is an unincorporated and 
unorganized territory of the United States. But I say that Mrs. 
Maloney in a certain perspective, as my good friend Mr. Davis 
had raised the issue of Moses the prophet. Well, when you think 
back to one of the greatest empires that ever existed, the 
Roman empire, one of the things most unique in the new 
testament--as I recall, reading about Paul, the Apostle, was 
that he was Jewish by ancestry, but he was a Roman citizen, 
which afforded him all the privileges allotted to anybody who 
lives under the Roman empire.
    So, I kind of like to think, for those of us living in the 
insular areas, even though we may call it a province--we don't 
like the word colonialism because we were a colony of the 
British empire--we are part of the American family. And if I 
were a U.S. citizen, I don't care where I live, I should be 
granted the same privileges and immunities whether you live in 
Timbuktu, Africa, or wherever. We should be extended the same 
privileges of a U.S. citizen, which, by the way, is probably 
the most sought-after citizenship in any place in this planet.
    Thank you.
    Mr. Miller. Thank you.
    Let me thank all three of our colleagues for being with us 
today and bringing this important issue before us. Thank you 
all for being here, and we'll proceed on with Dr. Prewitt, our 
next panel. Thank you.
    Dr. Prewitt, as is procedure within the Government Reform 
Committee, would you raise your right hand?
    [Witness sworn.]
    Mr. Miller. The record will reflect Dr. Prewitt said I do.
    The presentation by the three Members of Congress, that 
raises a very important issue, but it has some very significant 
implications of a change, of historic proportion, and so we're 
very interested in the Bureau's thoughts on that and also the 
thoughts within the statistical community, even though you're 
the only one here right now on that.
    Dr. Prewitt.

  STATEMENT OF KENNETH PREWITT, DIRECTOR, BUREAU OF THE CENSUS

    Dr. Prewitt. Thank you, Mr. Chairman, for this opportunity. 
I would like to preface it by expressing my very strong 
appreciation for the very strong words that you and Mrs. 
Maloney and Congressman Serrano have put on the table with 
respect to the importance of a continuing resolution that 
allows us to maintain the momentum as we move into October 1. 
That's very seriously appreciated work and effort on your 
behalf. Thank you.
    I'm going to have behind me Ms. Teresa Angueira, who is the 
Assistant Division Chief for our Decennial Management Division 
and is in charge of planning for census 2000 in Puerto Rico; 
and, if there are particular technical questions, I may wish to 
call upon her for answers as well.
    As has already been clear, Puerto Rico has been included in 
every decennial census since 1910. Title 13 of the U.S. Code, 
which sets out the basic law under which we conduct the census, 
specifies that, in addition to the 50 States and the District 
of Columbia, the census should include the Commonwealth of 
Puerto Rico, the Virgin Islands, Guam, the Commonwealth of 
Northern Mariana Islands and such other possessions and areas 
over which the United States exercises jurisdiction, control or 
sovereignty.
    Our census plans in Puerto Rico, as you just heard, are 
moving along on schedule. I was able to visit Puerto Rico in 
early August at which time I had an informative luncheon with 
Congressman Romero-Barcelo. I also met with him earlier on some 
of these issues. I met with the Governor, Governor Rossello, 
and participated in an important census 2000 town hall meeting 
of mayors, government officials, and data users.
    Of course, I have had exchanges with Representative Serrano 
about the need for a complete and accurate census in Puerto 
Rico and, of course, also in New York.
    The essential thing to remember about census 2000 
operations for Puerto Rico is that they will be comparable to 
the States. We will conduct a full range of operations to 
ensure a complete and accurate enumeration.
    I'm going to address, first, the issue of tabulations 
raised in your letter of invitation and in the report language 
proposed by Representative Serrano. The report language states 
that the committee expects the Census Bureau to include Puerto 
Rico in any electronic access to census data as a State 
equivalent in the same manner as the District of Columbia is 
included. It also suggests that any extracts of census data, 
like the 1990 Public-Use Microdata sample, should treat Puerto 
Rico in the same manner as the District of Columbia.
    Electronic access to 2000 data will be through a newly 
developed system called the American FactFinder. This system is 
available now on the Census Bureau's Internet home page. Not 
only will Puerto Rico be treated as a State equivalent, we are 
developing a special Spanish-language interface for Puerto 
Rico. As for Public-Use Microdata samples, we did have 
comparable samples from Puerto Rico in 1990 and would expect to 
do so again in 2000.
    Report language also says that the committee expects the 
Census Bureau to include Puerto Rico in any national totals in 
these national summary data products.
    The issue of including Puerto Rico in the national counts 
would differ from what we announced in Census 2000 Decision 
Memorandum No. 64. This memo, issued in November 1998, 
indicates that the Census Bureau will include data for Puerto 
Rico in the national summary data products for census 2000. 
That is, unlike 1990 when data for Puerto Rico were included 
only in one national summary table showing total population, 
the data from census 2000 will display Puerto Rico in every 
national summary report.
    The best way to understand the difference between the 
decision memorandum and the report language is to compare 1990 
with the plan for 2000 and then the plan for 2000 with 
illustrative tabulations responsive to the report language.
    Members of the committee, if I could draw your attention to 
the appendices, the attachments at the end of my written 
testimony, because I will now make reference to those.
    I refer first to attachment 1, which has two pages. The 
first page shows national summary totals for certain 
characteristics data as presented in 1990. There is no line for 
Puerto Rico on this page. Compare this with the second page of 
attachment 1, which illustrates the current 2000 plan. On this 
page you will see a separate line for Puerto Rico at the 
bottom. We will display Puerto Rico counts on all national 
summary tables that report population and housing 
characteristics.
    This is a full-table coverage effort and is a significant 
improvement in presentation of data for Puerto Rico compared to 
1990. I want to emphasize on any table in which you can find 
data for the District of Columbia or for Florida or for New 
York or for Illinois, you will also find data for Puerto Rico. 
This table does not address but then does not preclude the 
issue that the report language introduces, which is including 
Puerto Rico counts in the national totals.
    So, let me now turn to that issue and to attachment 2. 
Attachment 2 helps us see what we believe would be required by 
the report language that Puerto Rico counts be included in the 
national totals. Page 1 of that attachment shows from 1990 the 
only table produced where totals for Puerto Rico were included 
on the same page as those for the United States, as 
traditionally defined. You will see a line at the top that says 
total. This is the total population count for all areas and 
groups covered in the 1990 census including, of course, Puerto 
Rico.
    Below that is a line ``United States'' and then separate 
totals for each outlying area and the three categories of the 
U.S. population abroad. This is how we presented the data in 
1990. Mr. Chairman, for purposes of this testimony, I interpret 
the line ``United States'' and not the line ``Total'' to be 
equivalent to the term national totals used in the report 
language.
    The remainder of my testimony will not be responsive to 
your questions 1 and 6 in the letter of invitation if this 
misinterprets the report language. So, I pause to make sure 
I've interpreted the report language because the report 
language uses the term national totals, but I do think that 
what Mr. Serrano has in mind is equivalent to what we in this 
table call ``United States.'' What we in this table call 
``Total'' already includes Puerto Rico.
    Mr. Miller. I believe that's right.
    Dr. Prewitt. Thank you.
    Then let me direct your attention to page 2. This page 
reconfigures the 1990 table to follow our interpretation of the 
proposed report language. As you can see, we no longer have a 
separate line for Puerto Rico under outlying areas. And the 
1990 U.S. total, instead of being 248.7 is now 252.2 because it 
includes Puerto Rico's population. Had we presented the 1990 
counts in this manner for the last 9 years, every ratio, 
proportion or other statistic in the country that takes the 
U.S. population as its denominator would have been different.
    Under Decision Memorandum No. 64, it is the Census Bureau's 
plan to include Puerto Rico in national summary data products, 
as illustrated in attachment 1, but not in national totals.
    Though it is not our present intent, it is feasible to 
include Puerto Rico in the national totals. This decision, 
however, would have to be made prior to April 30, 2000, in 
order to incorporate it into our tabulation planning process. 
After that date, it would be difficult to implement a change 
from our present plans for the census 2000 tabulation.
    I hope that my testimony to this point answers the 
questions about tabulation posed for this hearing. However, I 
would also like to take a few minutes to explain the logic 
behind Decision Memorandum No. 64.
    The Census Bureau and other Federal statistical agencies 
historically have defined the ``U.S. total'' as the aggregate 
of the States and the District of Columbia. The Census Bureau 
would not normally deviate from historic practice in such a 
major way without prior and thorough consultation with relevant 
stakeholders, including other members of the statistical 
system.
    To tabulate Puerto Rico in the U.S. total for the 2000 
census would introduce a statistical redefinition of the United 
States. There are many consequences to be considered.
    First, let me refer you back to attachment 2 where the 
first page, as I said, is a 1990 census table that displays not 
just population but also land and water area. In the mock-up of 
this table, page 2 of the attachment, we have included Puerto 
Rico's area measurements as well as its population in the U.S. 
total. The Census Bureau is unsure whether that is the 
intention of the proposed report language. If not, the 
population measures and the area measures would have 
inconsistent denominators as the area measure would be for the 
United States and District of Columbia, whereas the population 
measure would be based upon populations of the States, District 
of Columbia and Puerto Rico. So, we would have inconsistent 
denominators.
    If it is the intent of the report language, however, then 
every measure of population density, which itself is a 
denominator for other statistical uses, would change compared 
to 1990.
    This is but one of many examples as to how Census Bureau 
products would be affected.
    There are also far-reaching consequences of data 
comparability with products from other Federal statistical 
programs. Different statistical definitions of the United 
States from one agency to another would affect comparability in 
all of our statistics: demographic, economic, health, 
education, agricultural, justice, and so forth. For example, a 
recently released Bureau of Labor Statistics report on 
Employment and Average Annual Pay for Large Counties, 1997, 
includes data from San Juan, Puerto Rico. The tabular 
presentation includes a line called ``United States,'' and the 
Bureau of Labor Statistics is careful to note, ``calculations 
for the United States do not include data from Puerto Rico,'' 
which is to say the Bureau of Labor Statistics has taken a 
position consistent with Decision Memorandum 64, which is to 
include data from Puerto Rico but not to make it part of the 
national total.
    For reasons of statistical consistency, the Census Bureau 
would hesitate unilaterally to establish a new denominator. A 
statistical system requires common definitions if it is to be a 
system. There are few definitions more basic than what 
constitutes the national total population. Any fundamental 
change in this definition should be fully explored with 
stakeholders within and outside the Federal Government.
    Therefore, Mr. Chairman, it is the recommendation of the 
Census Bureau that the policies set forth in Decision 
Memorandum No. 64, which will result in Puerto Rico being shown 
in all census 2000 national summary tables of population and 
housing characteristics but not included in the national 
totals, be controlling pending broad consultation and more 
intensive review of the implications of altering the basic 
denominator for nearly every statistic generated over the next 
decade.
    Mr. Chairman, I've used up most of my time discussing the 
tabulation issue because I judge it to be the priority question 
for this hearing.
    I will very briefly reference my written testimony on 
questions two or three of your invitation letter which focus on 
census procedure for Puerto Rico. I'm very pleased that the 
previous panel spoke so favorably about the current plans. We 
are indeed on schedule in Puerto Rico. As you have already 
heard, we are providing for the Puerto Rico census a 
questionnaire form which is nearly identical--not completely, 
but nearly identical to the Stateside. This questionnaire for 
Puerto Rico was not submitted to the Congress because that's 
not our obligation, but it was approved by the U.S. Office of 
Management and Budget.
    The basic census procedure in Puerto Rico will be update 
leave, that is, enumerators will deliver the questionnaire and 
update the address file. In constructing the address file, the 
address file for Puerto Rico, we've had active involvement in 
our LUCA program. One major difference for Puerto Rico compared 
to 1990 is that in 2000 they will be able to mail back the 
questionnaire. We will have a nonresponse followup procedure 
that is similar to what we use Stateside.
    We have all of our coverage improvement strategies in place 
to check the quality of our work and reach our goal of 
accounting for 100 percent of the policy. We will conduct the 
accuracy and coverage evaluation survey.
    As has already been made clear, Puerto Rico is actively 
involved in our outreach effort. We've mailed materials to 80 
municipalities to encourage them to form complete count 
committees.
    As in the States, a program in which you've taken a keen 
interest, we have a very active census in the schools program. 
In partnership with the Department of Education, school kits 
will be made available to every teacher in Puerto Rico.
    We are partnering with community groups and professional 
associations. We partnered with the Museum of Art of Puerto 
Rico, which permitted reproduction of a poster which we have 
displayed here in the hearing room. We're very proud of that 
poster, and it's now being very widely used around Puerto Rico.
    With respect to paid advertising, we have Y & R Puerto 
Rico, which has very nearly completed production of what we 
believe will be a very successful campaign.
    We are committed to a strong, high-quality census in Puerto 
Rico and believe we're on track to do so.
    Thank you, Mr. Chairman.
    Mr. Miller. Thank you, Dr. Prewitt.
    [The prepared statement of Dr. Prewitt follows:]

    [GRAPHIC] [TIFF OMITTED] T1630.019
    
    [GRAPHIC] [TIFF OMITTED] T1630.020
    
    [GRAPHIC] [TIFF OMITTED] T1630.021
    
    [GRAPHIC] [TIFF OMITTED] T1630.022
    
    [GRAPHIC] [TIFF OMITTED] T1630.023
    
    [GRAPHIC] [TIFF OMITTED] T1630.024
    
    [GRAPHIC] [TIFF OMITTED] T1630.025
    
    [GRAPHIC] [TIFF OMITTED] T1630.026
    
    [GRAPHIC] [TIFF OMITTED] T1630.027
    
    [GRAPHIC] [TIFF OMITTED] T1630.028
    
    [GRAPHIC] [TIFF OMITTED] T1630.029
    
    Mr. Miller. We all know this is a complicated issue, and 
you used the words historic change and issue of statistical 
redefinition. And so, let's start off with the question of 
statistical redefinition. Would you explain that a little bit 
more? The question that Mr. Serrano used is the national 
summary data products. If we included a redefinition, what does 
that mean and what are the implications of that?
    Dr. Prewitt. It is unfortunate we don't have precise 
language for this information. National summary data products, 
an example of which is in appendix 1 or attachment 1, in 
national summary data products, Puerto Rico will be included 
and all of those that the Census Bureau produces after 2000. 
That has been made possible because we now have a questionnaire 
strategy and a methodology in Puerto Rico that is practically 
completely comparable, which means every table where any data 
are presented by region or State, Puerto Rico will be 
identified. That means anyone who wants to compare Puerto Rico 
with Maine or with California can do it just like they can 
compare California and Maine or any other kind of procedure.
    That's our national summary tables. Then there's something 
in the report language called the Nation's total or the 
national total and, as I said, we have interpreted that to mean 
the United States for our purposes. In our tabular 
presentation, we have a line called ``the United States.'' 
That's where we would not be putting the Puerto Rico total. So, 
the statistical inconsistency would be that, if we follow the 
report language. We would now be redefining that line called 
the United States, as Congressman Serrano correctly pointed 
out, approximately 3.8 million people.
    We would not, under the report language, be including the 
overseas population, which we do count, the diplomatic and 
military population, for example. We would still have two 
different counts. We would have a total that had everything in 
it, including the overseas population and the other insular 
areas but not Puerto Rico. Well, everything because it includes 
Puerto Rico but then a U.S. line that excluded the overseas 
population, the other insular areas but not Puerto Rico. So 
that would be redefining the key line that says the United 
States. And my simple point is we have not had extensive 
conversations with other members of the Federal statistical 
agency, and my one example from Bureau of Labor Statistics 
suggests that we would then have a different definition of the 
United States than would the BLS, unless we could somehow 
coordinate with them.
    And we don't know--I just haven't had the time yet, Mr. 
Congressman, to explore exactly--I know this would be different 
from how the Department of Education collects statistics, how 
the Department of Transportation collects and so forth. It's 
not that it can't be done. It's that it ought to be done in 
consultation with the other agencies that will be affected by 
the decision we would be making.
    Mr. Miller. When I raised the question with the previous 
panel, they used the analogy that when we added States to the 
Union back in the late 1950's, the last time that happened, the 
numbers were incorporated because they were much smaller 
population States at that time than Puerto Rico. Because one of 
the problems is the apples and oranges problem.
    Dr. Prewitt. Let me refer back to 1950. Prior to 1950, we 
treated Alaska and Hawaii exactly as we're treating Puerto Rico 
now. Indeed, we treated Puerto Rico, Alaska, and Hawaii roughly 
in the same way. After Statehood for Alaska and Hawaii in 1950, 
in the 1960 census, we obviously included Alaska and Hawaii as 
States. However, we also presented tables that helped the user 
understand what had happened so that we tried to help the user 
make comparisons back to 1950. So, we really ran a dual set of 
tables for some of the key tables so people could understand 
what is happening because you do get a funny blip.
    There's no doubt we could do this with Puerto Rico. That 
is, we could create after 2000, if we put Puerto Rico into the 
national total, we would try to create a number of duplicate 
tables so that the data users could try to see what had 
happened. It's a bit different because we included Alaska and 
Hawaii in our definition of the United States because they had 
become States. This would be the first time in which we 
included an entity that was not a State in the U.S. total. So, 
it would be a change from what we did in 1960. It's feasible. 
It can be done. But it does have consequences.
    Mr. Miller. The proposal that you're planning on using 
right now basically allows anyone--because it's readily 
available on the computer--to do any calculation they want with 
or without Puerto Rico. It's just that the published numbers, 
especially when you get to the definition of the United States, 
will not be. Mr. Romero-Barcelo was saying we don't have the 
data, but they will have the data this time around. It's not a 
question of not having the data. It's what's going to be 
presented.
    Dr. Prewitt. That's right. Congressman Romero-Barcelo 
basically in his commentary was referring to conditions prior 
to 2000 when the data were not available and created the 
obstacles and so forth. The kinds of arguments he was making--
and he, of course, said this in his commentary, will not hold 
after 2000, because all the data will be available, as 
attachment 1 indicates.
    Mr. Miller. Let me ask one more quick question. How are we 
going to treat the territories, American Samoa and the Virgin 
Islands and such? Are we going to be doing the same census with 
those areas? And why aren't we treating them the same way we're 
treating Puerto Rico?
    Dr. Prewitt. As Congressman Faleomavaega referenced, we do 
the census completely differently. We contract it. It is done 
by the local governments and their own statistical offices 
under technical guidance from us. That is, we provide the 
guidelines, and the actual census is conducted there according 
to their own local needs as he so eloquently pointed out. They 
are saying ``We don't want a census imposed upon us because we 
have very different, different kinds, in this case, land tenure 
patterns, different kinds of patterns.''
    We simply go to them and say, what makes the most sense for 
you? And they say, this is the kind of data we need for our 
internal planning purposes and government purposes. We say, 
good, we'll help you design that census.
    We then actually pay them. That is part of the 
appropriation bill. There is a sum of money for each of the 
insular areas where we actually contract to them to do the work 
under our technical guidance.
    We then process the data and tabulate it, but because it's 
not consistent at all, we have to have separate data products 
that describe the insular territories, and they're different 
from one another because they have different properties and 
different needs.
    As he said, this is a perfectly comfortable relationship. 
There would be nothing to prevent us because we do a total 
count--there would be nothing to prevent us from putting the 
count of Samoa or the Virgin Islands or Guam into the 
definition of United States. It would again even make more 
complicated the denominator because, whereas some of the other 
statistical agencies do work in Puerto Rico, they do not do 
much work at all in the insular territories. So we would have a 
denominator again in the official U.S. total produced by the 
Census Bureau that would not be consistent with the denominator 
of the United States being used by other statistical agencies.
    Mr. Miller. Thank you.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Dr. Prewitt, for your testimony.
    Looking earlier at the statistical abstract, there seems to 
be different total populations of the United States for 1990, 
and each one had a different total. Two are labeled total 
resident population, but the 1990 population is different. 
There is one labeled total civilian population. Then there is 
the total civilian noninstitutional population used by the 
Bureau of Labor Statistics. These all differ from the total 
U.S. population for apportionment. On the other hand, your 
testimony seems to indicate that there is really only one total 
U.S. population, and can you explain to me why we have all 
these different total populations?
    Dr. Prewitt. You're quite right, Mrs. Maloney. There are 
different totals produced because they have different 
functions, and the total that would be used by the BLS is the 
noninstitutional labor force. The total we obviously use for 
apportionment counts does exclude the District of Columbia 
because it cannot be in the apportionment counts, so you simply 
do produce different totals for different purposes. And, as 
I've said, it's feasible if we want to redefine something----
    There is a key U.S. total--and I take you back to 
attachment 2. That line that says the United States is our 
basic U.S. total minus all of the other categories that are 
listed on that page which are the population abroad, the other 
possessions outlined, jurisdictions and so forth. So, that is 
the total for apportionment purposes.
    Mrs. Maloney. Given that we already have all these 
different definitions, why can't the problems you raise be 
dealt with simply by the addition of another definition and 
allowing agencies to choose the denominator that is best suited 
for its purposes? That is, the BLS uses the population number 
that's best suited for it. Could we not just add another 
definition that included----
    Dr. Prewitt. Certainly. Indeed, you can take this table and 
you can run as many different totals as you want to. We have a 
total count. We have a U.S. residency total. We could then have 
a list including/not including Puerto Rico, including/not 
including insular areas, so on and so forth. We can run as many 
different presentations as you want.
    These data are all electronic. Anyone can do that.
    I haven't talked to all of my colleagues in the other 
statistical agencies. I have talked to BLS, which is the major 
other statistical agency which has to worry about this 
question. But my guess is that primarily, they would use as the 
U.S. total the 248,709,873 as adjusted throughout the decade. 
And all I'm recommending is that before we redefine something 
called the United States, that we should do it with some sort 
of consultation, a thorough review as to its implications. I 
don't think they've all--I'll give you one other example. I'm 
sorry that Mr. Serrano is not here. The United Nations has a 
special entry for Puerto Rico, for example. It lists the 
population of Puerto Rico independently of the United States. 
Now, why the United Nations does that, I don't know, but it 
does. I presume if we put Puerto Rico in--and they then list 
something called the U.S. total.
    If we put Puerto Rico into our U.S. total, I think the 
United Nations would have to drop Puerto Rico as one of its 
entries because they would otherwise be double counting. So 
those kinds of implications, I don't think somebody sat down 
and worked out the whole array of them, and something of this 
magnitude has unintended consequences. All I'm recommending to 
you today is that that work be done before we move to a new 
statistical definition of the United States.
    Mrs. Maloney. But both President Carter and President Bush, 
in transmitting the apportionment data to Congress, presented a 
total U.S. population that included the District of Columbia 
but not Puerto Rico and the other territories. What will you 
recommend be included in President Clinton's submission? Will 
the total population include Puerto Rico and the outlying 
areas?
    Dr. Prewitt. I'm surprised at what you just said. I thought 
the apportionment numbers always exclude the District of 
Columbia and only included the 50 States, including, I should 
say, the 50 States and the overseas population which is 
assigned to a particular State. Then, as you know, when we 
reproduce the redistricting data, we take out the overseas 
population because we can't put them down to the block level. 
Therefore, I'm sorry, I'm just ill-equipped to answer this 
question because it's inconsistent with what I thought we did.
    Mrs. Maloney. We have a document that says that's what they 
did.
    Dr. Prewitt. I can't imagine what then happened with the 
apportionment process if the District of Columbia count was in 
it.
    Mrs. Maloney. We'll get it to you.
    Is there any technical difficulty in presenting the census 
data as requested by Representative Serrano? Is there any 
technical difficulty in doing it? Is there any scientific 
difficulty in presenting the data as requested by 
Representative Serrano?
    Dr. Prewitt. No, as I suggested, at a certain point we do 
write the software that drives all the tabular displays and, as 
I've suggested, much later than April 30, 2000. By then, we're 
trying to close down all of our software preparation for 
tabular presentation. So, up until then, there really is no 
technical impediment.
    Mrs. Maloney. Here is the data.
    Dr. Prewitt. I'm interested.
    Mrs. Maloney. Thank you again for your diligent testimony 
and your commitment and hard work. Delegates Romero-Barcelo and 
Faleomavaega mentioned how helpful the Census Bureau has been 
in working with their two territories and getting an accurate 
count, so I join my voice in thanking you. I have no further 
questions.
    Mr. Miller. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Dr. Prewitt, let me just reiterate the question that I 
asked the Members relative to the distribution of resources. 
Would you see any shift in resource allocation and distribution 
should we use the Serrano language?
    Dr. Prewitt. Mr. Davis, that's a very complicated question 
in which I can't give you much intelligence. We tried to do a 
bit of work on that this week and simply could not complete the 
work. As Mr. Serrano said, it's an issue of how Federal 
agencies and the relevant congressional committees would write 
their formulas; and I think it would create some uncertainties 
as to how those formulas would be produced. They're not 
unsolvable, but I don't think you can automatically presume 
there would be a redistribution of resources. But certainly 
every formula would have to take into account that they're now 
working with a somewhat different denominator. Maybe in every 
formula they either back it out or put it in depending.
    Could I, while I have the floor, and something else because 
I have the piece of paper Mrs. Maloney handed me. As I read it, 
it says that the District of Columbia is excluded in 
determination of apportionment, which is exactly what I thought 
I testified to.
    Mrs. Maloney. Is it included in the total?
    Dr. Prewitt. This is included in the total, but that's 
consistent with what I just said about this attachment, which 
is we include the District of Columbia in the total, 
statistical definition of the United States, but, obviously, 
for apportionment purposes, we would exclude it in terms of 
delivering the apportionment numbers because we don't apportion 
including the District of Columbia.
    Sorry, Mr. Davis.
    Mr. Davis of Illinois. That's quite all right.
    Let me just appreciate your answer in terms of the 
complexity of the question, and also I probably need to just 
make it clear that, should it result in some shift in changes 
based upon the realities of the population, I certainly 
wouldn't have a problem with it. So, it's not suggested that I 
personally would have any problem with it. I'm just trying to 
understand as best that I can the issue.
    The final question that I have is, am I to now really 
understand that the primary reason one would not necessarily 
want to use the language that is proposed by Mr. Serrano is 
because there has not been the time to work in comparability 
with other users, other stakeholders, in that the Census Bureau 
would then perhaps have data reported in a different manner 
than some other entities that we coordinate data with?
    Dr. Prewitt. Yes, sir. That is the Census Bureau's 
hesitancy. I come before you as a head of a statistical agency, 
not as a constitutional lawyer or as a policy advisor. There 
could be other kinds of issues implicit in this that would not 
be ours, but from the point of view of the Census Bureau, our 
hesitancy has to do with complications, difficulties, 
confusions, inconsistencies in the statistical system it may 
create that we believe should be examined and make sure we're 
not doing some sort of harm.
    We may, after examination, come back and say, look, we can 
fix all of this. We've now had the kinds of conversations and 
so forth and so on. But I can just say we've not yet had that 
opportunity. We would see this, of course, because it would be 
interagency, as the responsibility of the Office of Statistical 
Policy, not just the Census Bureau's responsibility.
    Mr. Davis of Illinois. I thank you very much, and I have no 
further questions.
    I'd also like to indicate my appreciation for the work that 
you did and also the consistency relative to the way that you 
have looked at technical issues and technical problems 
throughout the process, and so I don't see any deviation from 
that relative to the response that you've given today. Thank 
you very much.
    Mr. Miller. I just have one clarification question.
    This is a little description of the methodology you used 
for Puerto Rico. This is the first time we're doing the full-
fledged census. Is there any unique challenges, unique cost 
because of it that you're experiencing down there? Just 
describe it, very briefly, the process that's being used.
    Dr. Prewitt. I think the biggest difference in Puerto Rico 
is that we can't really use just a mailout-mailback system. 
We've got to use all update leave.
    It was quite difficult. We've done it, but it was quite 
difficult to assemble an address file. But the postal system in 
Puerto Rico is not such that we can simply mail a questionnaire 
out. So we've got to do a full update leave. And we have no 
idea because we haven't had this experience--see, all previous 
censuses in Puerto Rico, we went out and did the enumeration 
ourselves. This time, we'll be delivering the form and hoping 
they'll mail it back. We don't know what to expect in the mail 
response rate, for example. We think it creates all other kinds 
of implications. What size labor pool are we going to need for 
a nonresponse followup? If we had a high response rate, we 
would need a much smaller pool, of course, but we have no 
historical experience to make a guess as to what the response 
rate is likely to be in Puerto Rico. So that's a technical 
issue.
    There are some very complicated questionnaire issues which 
we have worked out with the Puerto Rico authorities. When they 
actually unfold, they're going to say, ``Oh, I didn't know 
that's what the implication of that would be.'' But we'll work 
with those as we go. But I think, operationally, by far the 
most complicated thing is it is a very highly scattered 
population, but we're optimistic that our address file work 
gives us the basis and that our update leave will work, but 
until we're actually out in the field--Terry, you want to add 
anything?
    Does she need to be sworn?
    Mr. Miller. It's policy that we do it. If you would just 
stand and raise your right hand.
    [Witness sworn.]

    STATEMENT OF TERESA ANGUEIRA, ASSISTANT DIVISION CHIEF, 
                 DECENNIAL MANAGEMENT DIVISION

    Ms. Angueira. I just wanted to add that it's the first time 
we're using the update leave methodology. We will have to cover 
the ground twice in Puerto Rico, once to create the address 
list, which we have already done, and once to deliver the 
questionnaires.
    As far as cost, the cost comparison, Dr. Prewitt was 
talking about nonresponse followup. What we did in 1990 was 
conduct the census with a list enumerating methodology, which 
is basically 100 percent nonresponse followup, if I can use 
that term freely. In other words, we were using the nonresponse 
followup methodology at every household, delivering the 
questionnaire for the first time at that moment and collecting 
the interview at that moment. We hope to reduce that cost by 
using the update leave methodology and hope to receive a 
substantial proportion, which is hard to predict, of the 
questionnaires in the mail and reduce our nonresponse followup 
workload.
    Mr. Miller. Let me thank you.
    I think we should all be pleased. As I think Mr. Serrano 
also acknowledged, we're making a giant stride in the right 
direction to get comparable data, so we'll have that, but it 
does raise, as you say, historic redefinition problems in the 
statistical community that we need to address and think through 
thoroughly before you jump.
    So, with that, the hearing is now concluded. Thank you.
    Excuse me. I withdraw that. I need to ask unanimous 
consent.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record. Without 
objection, so ordered. And if the Delegate, Donna Christensen 
of the U.S. Virgin Islands, who was not able to be with us 
today, wishes to have something submitted for the record, I ask 
unanimous consent that that be included in the record.
    With that, the meeting is adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]


</pre></body></html>
